<html>
<title> - PRIORITIES AND CHALLENGES IN THE U.S.-TURKEY RELATIONSHIP</title>
<body><pre>[Senate Hearing 115-669]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-669

                 PRIORITIES AND CHALLENGES IN 
                 THE U.S.-TURKEY RELATIONSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            SEPTEMBER 6, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-546 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>       




                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                           C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     2


Cook, Dr. Steven A., Eni Enrico Mattei Senior Fellow for Middle 
  East and Africa Studies, Council on Foreign Relations, 
  Washington, DC.................................................     4

    Prepared statement...........................................     6

    Responses to Additional Questions from Senator Menendez......    31


Sloat, Dr. Armanda, Fellow for Democracy in Hard Places 
  Initiative, Harvard Kennedy School, Cambridge, MA..............     9

    Prepared statement...........................................    11

    Responses to Additional Questions from Senator Menendez......    31



              Additional Material Submitted for the Record

Letter Submitted by Amnesty International........................    33




                             (iii)        

 
                   PRIORITIES AND CHALLENGES IN THE 
                    U.S.-TURKEY RELATIONSHIP

                              ----------                              


                           SEPTEMBER 6, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Gardner, 
Young, Cardin, Coons, Murphy, Kaine, Markey, and Merkley.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman.  The Senate Foreign Relations Committee will 
come to order.
    We thank our witnesses for being here.
    Since serving beside the United States in the Korean War 
and then joining the North Atlantic Treaty Organization in 
1952, Turkey has proven itself to be a strong ally and 
important partner to the United States.
    We continue to see positive day-to-day cooperation on 
security issues in and around the Republic of Turkey.
    Yet, our relationship has not always been as productive as 
we in the United States might like. For example, in 2003, the 
Turkish Government refused to allow the United States military 
to operate from a NATO base in Incirlik, Turkey.
    In the last year, many of us in America have grown 
increasingly concerned about our partnership with Turkey. After 
the failed coup, the Turkish Government arrested tens of 
thousands of people, instituted a state of emergency that keeps 
dissidents in legal limbo, and otherwise cracked down on the 
free press.
    Innocent Americans also have been caught up in these 
repressive acts, including Andrew Brunson, a well-regarded 
American pastor who has been imprisoned in Turkey for 334 days. 
His continued mistreatment speaks volumes and raises serious 
questions about whether or not it is safe to live in or even 
visit Turkey.
    I have repeatedly raised Mr. Brunson's case with top 
officials in both the Obama and Trump administrations and 
joined Ranking Member Cardin on February 15 in making a direct 
request to President Erdogan that Mr. Brunson be released and 
allowed to return to the United States.
    Erdogan has not only domestically acted against 
journalists, opposition leaders, and innocent Americans, he has 
rebuffed his allies internationally. Last month, Turkey agreed 
to give Russia $2.5 billion in return for surface-to-air 
missiles that are incompatible with NATO's systems.
    These developments require that the United States work to 
preserve our important relationship with Turkey while 
reassessing ways to address differences that threaten close 
ties between our countries.
    In that spirit, I look forward to hearing from our 
witnesses about the challenges we face with Turkey and how we 
can improve this important relationship.
    I want to thank you again for being here. And I want to 
thank our ranking member for the way that he works with me on 
this committee, for his service, and I hope he had a good 
recess. We look forward to your comments.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, I missed you during the last 
5 weeks. So it is good to be back. It is good to see you. You 
were telling me about the Rotary Club speech you gave.
    The Chairman.  I actually was not telling you about it. You 
were asking me about it. And I think it is time to move on to 
our witnesses. [Laughter.]
    Senator Cardin. But it is good to be back. I was just going 
to comment that it has been an active period in regards to 
world events that impact our committee. We know today we will 
get an all-members classified briefing on North Korea and 
Afghanistan, and they are going to be very important issues 
that we have to take up during the fall, particularly the 
current situation in North Korea.
    We understand the limit of a military option, and I think 
the President's comments have made it even more challenging for 
us to use diplomacy in the manner that could bring about a 
change in behavior in North Korea.
    And then, just yesterday, I was reading the comments of 
Ambassador Haley as it relates to Iran, which may very well 
require this committee to get more engaged in Iran.
    We have a very busy agenda. And I want to thank you for 
holding this hearing on Turkey because I agree with you. Turkey 
is a critically important partner of the United States. It is a 
country that we look upon to help us in our counterterrorism 
activities. It is a NATO partner. We have an important 
relationship with Turkey in regards to our efforts of defeating 
ISIS to ending the war in Syria, dealing with refugee outflows 
from the Middle East, pushing back on Iran, strengthening NATO, 
addressing Russia's activities in Europe, not to mention our 
economic partnerships between the United States and Turkey. So 
we need Turkey working with us not against us.
    There have been some very troubling developments. I first 
mention Turkey's leader's repressive activities and human 
rights abuses. There has been a state of emergency since last 
year, the failed coup. And the United States strongly opposes 
the coup. We believe democratic countries do change in 
governments through the ballot not through military activities. 
But since that failed coup, we have seen the leadership of 
Turkey take actions that are very troubling: seizure of private 
assets, the dismissal of thousands of civil servants, the 
detaining of tens of thousands in pretrial detention. Mr. 
Chairman, you mentioned the ongoing detention of Pastor Andrew 
Brunson and two Amnesty International staff. That is 
outrageous. I would ask consent that the statement from Amnesty 
International be made part of our record.
    The Chairman.  Without objection.


    [The material submitted by Amnesty International is located 
at the end of this hearing transcript.]


    Senator Cardin. Turkey is a democracy, and yet when you 
look at how they have recently conducted their constitutional 
referendum, it does not meet the standards of a democratic 
country. It was not a free and fair referendum.
    We have concerns. The people of Turkey deserve leaders who 
will protect their democratic institutions.
    Another troubling development is reports of the Turkish 
Government considering the purchase of the S-400 missile 
interceptor batteries from Russia. If that goes forward, it 
seems like that is a possible violation of section 231 of the 
Russian-Iran-North Korea sanctions bill.
    There are a lot of issues that I think we need to take up, 
and I appreciate very much that we have two very, very 
distinguished witnesses, and we welcome both of you to the 
committee. I do point out it is unfortunate that we cannot have 
a government panel, an administration panel, here because, 
quite frankly, the people who would normally be sitting at this 
dais from the administration have not yet been nominated or 
confirmed by the United States Senate.
    Ambassador Bass, our distinguished ambassador, is now 
heading to Afghanistan or at least he has been nominated to 
Afghanistan. We need a confirmed ambassador in Turkey as part 
of our strategy for the issues that we are going to be talking 
about today.
    So, Mr. Chairman, I am very happy we have two very 
distinguished witnesses, but I am disappointed we do not have 
the people in the administration who can appear before this 
committee.
    The Chairman.  Well, thank you, and I appreciate you 
working with me and other committee members, when we do get 
nominations, to move them out as quickly as possible. And I was 
glad that we were able to get a large number of them confirmed 
before this last recess.
    Our first witness today is Dr. Steven A. Cook, the Eni 
Enrico Mattei Senior Fellow for Middle East and Africa Studies 
at the Council on Foreign Relations. Our second witness is Dr. 
Amanda Sloat, Fellow at the Democracy in Hard Places Initiative 
at Harvard University. We want to thank you both for being here 
in spite of the fact that you might not be here if we had 
administration witnesses. We look forward to your expert 
testimony. We appreciate your service in this way.
    And if each of you would take about 5 minutes to summarize, 
we would appreciate it, and then, as you know, we will be 
asking questions. But if you would begin in the order 
introduced, I would appreciate it.

   STATEMENT OF DR. STEVEN A. COOK, ENI ENRICO MATTEI SENIOR 
 FELLOW FOR MIDDLE EAST AND AFRICA STUDIES, COUNCIL ON FOREIGN 
                   RELATIONS, WASHINGTON, DC

    Dr. Cook. Thank you very much, Mr. Chairman and Ranking 
Member Cardin for the opportunity to appear before you today to 
discuss priorities and challenges in the U.S.-Turkey 
relationship.
    Changes in Turkey, the United States, and global politics 
since the end of the Cold War require a reevaluation of the 
U.S.-Turkey relationship. As the President of the Council on 
Foreign Relations, Richard Haass, recently asserted, ``Turkey 
may be an ally, but it is not a partner.''
    In the 15 years since the ruling Justice and Development 
Party, known by its acronym AKP, came to power, it has provided 
stability of a single-party government, and with that, Turks 
have benefited from new economic opportunities, infrastructure 
development, and improved access to health care.
    There has been considerable political regression, though. A 
little more than a decade since Turkey began membership 
negotiations to join the European Union, it looks less like a 
European democracy and more like an elected autocracy. 
President Recep Tayyip Erdogan's opponents have been routinely 
subjected to coercion, intimidation, and violence. Since the 
failed coup in July 2016, more than 200,000 people have been 
detained, arrested, or fired from their jobs. Approximately 130 
news outlets have been shuttered. Foreign journalists and 
international and Turkish human rights professionals have also 
been arrested. The ripple effect of this crackdown goes well 
beyond those directly caught up in the purge, affecting entire 
families and ruining the future prospects of many more.
    The deepening of authoritarianism in Turkey has had grave 
consequences for ideals that Americans hold dear, including 
freedom of expression, freedom of assembly, freedom of the 
press, and respect for human rights. It also has costs to the 
bilateral relationship between the United States and Turkey. 
President Erdogan's populism, nationalism, and authoritarianism 
often manifests in hostility towards the United States and 
results in policy choices that are at odds with American 
interests and goals.
    The list of American concerns is extensive, including the 
potential Turkish purchase of Russia's S-400 air defense 
system, government threats to rescind American access to 
Incirlik Air Base, promises of military operations against the 
PKK, a terrorist organization but in Iraq challenging Iraqi 
sovereignty, potentially weakening Prime Minister Haider al-
Abadi, warming of relations between Ankara and Tehran, Turkey's 
determination throughout much of the spring and early summer to 
complicate American efforts to destroy the self-styled Islamic 
State in Syria and its serious stronghold Raqqa because of the 
American alliance with the People's Protection Units, known as 
the YPG.
    Now, the Turks do have a legitimate argument about the YPG 
and its ties to terrorism, but Ankara played an important role 
pushing the United States towards cooperation with this group 
when the Turks refused to cooperate with the United States in 
the fight against the Islamic State.
    Washington's military ties with the YPG are also propelling 
Turkey's relations with Tehran and Moscow.
    The final source of tension is the venomous anti-American 
discourse that Turkish officials and media outlets have 
employed since the summer of 2016, as well as the treatment of 
Americans both inside and outside of Turkey. The Government and 
government-friendly media have placed blame for the coup on, 
among others, U.S. Central Command's General Joseph Votel, the 
CIA, American officers serving at Incirlik, a professor at 
Lehigh University named Henri J. Barkey, and your colleague, 
Senator Charles Schumer. All of them have been accused of 
working with Fethullah Gulen, the Pennsylvania-based cleric who 
the Turkish Government accuses of being behind the coup.
    There are also at least 15 U.S. citizens who have been 
jailed in Turkey. Most of them are being held in pretrial 
detention. Of those, American consular officials in Turkey have 
been denied access to five of them. The abuse of Americans in 
Turkey, which has compelled experts like myself to avoid 
visiting the country, has taken place alongside violence or 
threats of violence against Americans in the United States.
    What can the United States do about this?
    American officials have relied too much on private 
diplomacy and more honey than vinegar in public to encourage 
the Turkish Government to support our goals and adhere to their 
own principles. It has not worked. There is no guarantee that 
the application of public pressure on Turkey will alter its 
behavior for the better. The opposite may well occur, but it is 
a superior policy option than sanctioning Turkish actions 
through silence.
    Toward that end, there is an opportunity for the United 
States, especially the Congress, to make Turkey aware of 
Washington's displeasure with its democratic backsliding, its 
treatment of Americans, and a foreign policy that is at 
variance with the interests and goals of the United States.
    It can do this by, first, instructing the Government 
Accountability Office to conduct a study of the value of the 
U.S.-Turkey relationship and make the results of that study 
public; request that the Department of Defense study the costs 
and modalities of leaving Incirlik Air Base or shifting some of 
its operations to facilities in the area and making results of 
that study public; third, require that the State Department 
review its travel advisory to Turkey; fourth, restrict Turkey's 
participation in big-ticket, high-tech weapons development and 
procurement; and finally, publicly demand that Turkish 
officials refrain from their ongoing efforts to politicize the 
American judicial process in demanding the extradition of 
Fethullah Gulen and the end of the coming trial against Iranian 
Turkish businessman, Reza Zarrab.
    There is a chance that none of these demands will work, but 
it will at least put Turkish officials on notice that the 
United States will not sit idly by as Turkey undermines its 
policies and threatens its officials and citizens.
    Thank you very much.
    [Dr. Cook's prepared statement follows:]


                Prepared Statement of Dr. Steven A. Cook

    Mr. Chairman and members of the committee, thank you and the 
Ranking Member for the invitation to appear before you to discuss the 
priorities and challenges in the U.S.-Turkey relationship.
    Since the 1950s, successive American presidents have recognized 
Turkey as a critical ally. Even before the country became a member of 
the North Atlantic Alliance in 1952, Ankara dispatched forces to fight 
alongside Americans during the Korean War. Throughout the Cold War, 
close American-Turkish security cooperation played an important role 
containing of the Soviet Union. There were difficulties throughout the 
decades of partnership, including the 1964 Johnson Letter, Turkey's 
invasion of Cyprus in 1974, the American arms embargo in response, and 
regular diplomatic and political skirmishes over recognition of the 
Armenian Genocide. The overarching threat that the Soviet Union posed 
to both countries, however, ensured that these crises, problems, and 
irritants never disrupted the strategic relationship. It is this 
history that continues to frame the way in which Turkey is understood 
in policy debates, but it is outdated. Changes in Turkey, the United 
States, and global politics since the end of the Cold War require a re-
evaluation of the U.S.-Turkey relationship. American policymakers are 
hard-pressed to make the case that bilateral ties reflect
    The Council on Foreign Relations takes no institutional positions 
on policy issues and has no affiliation with the U.S. Government. All 
statements of fact and expressions of opinion contained herein are the 
sole responsibility of the author. ``strategic relations'' or a ``model 
partnership.'' As the president of the Council on Foreign Relations, 
Richard Haass, recently asserted, ``Turkey may be an ally, but it is 
not a partner.''
    After 1991 and the end of the Cold War, American and Turkish 
policymakers maintained close strategic ties as they searched for a new 
rationale for the relationship. For some analysts, there was reason to 
believe that Turkey could be as important an ally in the post-Cold War 
world as it had been during the showdown with the Soviet Union. In the 
following decades, Turkey was alternately held out among foreign policy 
analysts as a guide for the newly independent Turkic states of Central 
Asia whose citizens share cultural and linguistic affinities with 
Turks, a driver of security and peace in the Middle East, and, 
recently, a ``model'' for Arab countries seeking to build more 
prosperous and democratic societies. None of these projects proved 
successful because they overestimated Turkey's capacities, 
underestimated the historical legacies of the Ottoman domination of the 
Middle East, and misread Turkish domestic politics and the worldview of 
the country's current leadership.
    This November it will be fifteen years since the ruling Justice and 
Development Party (known by its Turkish acronym, AKP) came to power, 
launching a period of political stability, economic growth, and 
supposedly--as some, myself included, believed--liberal democratic 
reform. The AKP's electoral successes have produced the stability of 
single-party government, and with that Turks have benefitted from new 
economic opportunities, infrastructure development, and improved access 
to healthcare. There has been considerable political regression, 
though. A little more than a decade since Turkey began membership 
negotiations to join the European Union (EU), it looks less like a 
European democracy than an elected autocracy. President Recep Tayyip 
Erdogan has overseen a process in which the country's political 
institutions have been greatly weakened or re-engineered in the service 
of his parochial political interests and a transformative national 
agenda.
    The deepening of authoritarianism in Turkey and the development of 
a cult of personality around Erdogan has had grave consequences for 
ideals that Americans hold dear, including freedom of expression, 
freedom of assembly, freedom of the press, and respect for human 
rights. Even so, it is important to note that Erdogan is hardly a tin-
pot dictator. He is an extraordinarily adept politician who, for his 
core constituency, has ushered in a more open, inclusive, and 
democratic politics.
    This moment of empowerment stands in stark contrast to the 
experiences of Erdogan's opponents. They have been routinely subjected 
to coercion, intimidation, and violence. Since the failed coup d'etat 
of July 2016, more than 200,000 people have been detained, arrested, or 
fired from their jobs. Approximately 130 news outlets have ben 
shuttered. Included among those arrested have been foreign journalists 
as well as international and Turkish human rights professionals. 
Academics who called upon Turkish security forces to avoid civilian 
casualties in the conflict with the Kurdistan Workers' Party (PKK)--a 
terrorist organization--were summarily dismissed from their posts or 
arrested. Many of those in legal trouble have little recourse because 
they are accused of being members of ``FETO,'' the Fethullahist Terror 
Organization, which the Government alleges was behind the failed coup. 
Defense lawyers have been reluctant to take on these cases out of fear 
they themselves will be accused of the same. The ripple effects of this 
crackdown go well beyond those directly caught up in the purge, 
affecting entire families and ruining their future prospects. The 
widespread detentions, arrests, and sackings since July 2016 are not 
actually a new development, they are merely an acceleration of a purge 
that has been underway since 2014.
    The troubling situation in Turkey is not just a matter of domestic 
politics, however. It has costs for the bilateral relationship between 
the United States and Turkey. Erdogan's populism, nationalism, and 
authoritarianism often manifests itself in hostility toward the United 
States and results in policy choices that are at odds with American 
interests and goals. There is little reason to believe that this 
situation will change. As noted above, the bilateral relationship 
encountered turbulence in the past, but the United States and Turkey 
overcame these differences because of the dangers the Soviet Union 
posed to the security of both. There is no longer a common threat or 
big project that both countries share. At an abstract level, Washington 
and Ankara share an interest in fighting terrorism, but they each 
accuse the other of working with terrorists in Syria.
    The list of American concerns about Turkish policies and behavior 
is rather extensive. They include the potential purchase of the Russian 
S-400 air defense system; threats to rescind American access to 
Incirlik airbase, from which the United States conducts operation 
against the self-declared Islamic State and where it stores ninety 
nuclear weapons as a symbol of the American commitment to Turkish 
security; and promises of military operations against the PKK in Iraq, 
challenging Iraqi sovereignty and potentially weakening Prime Minister 
Haider al-Abadi. In August, the chief of staff of Iran's armed forces 
traveled to Ankara for security talks in the first such visit of its 
kind since the Islamic Revolution in 1979. Turkey and Iran have 
overlapping and conflicting interests in a variety of areas in Syria 
and Iraq as well as on border security and Kurdish separatism. It thus 
makes sense for them to seek dialogue, but Turkey's current outreach 
follows a pattern in which Turkish officials have sought to use their 
ties with Tehran as a way of alleviating pressure when they have run 
into trouble with Washington. Turkey's thaw with Iran sows mistrust 
between Ankara and countries in the Persian Gulf. This only weakens the 
Trump administration's efforts to build a unified front against Tehran.
    Then there is Turkey's determination to, at least, complicate 
American efforts to destroy the Islamic State in its Syrian stronghold, 
Raqqa. The Turks are deeply opposed to the U.S. alliance with the 
People's Protection Units (YPG) in Syria against the Islamic State. 
Ankara rightly considers this group to be inextricably linked to the 
PKK. More than any other issue, the U.S. relationship with the YPG 
through the Syrian Democratic Forces (SDF) has driven tension in 
American-Turkish ties. The Turks do have a legitimate argument about 
the YPG and its ties to terrorism, but Ankara played an important role 
pushing the United States and this Syrian Kurdish group together when, 
in the summer of 2014, the Turkish Government rejected American 
entreaties to fight the Islamic State together. Secretary of Defense 
James Mattis has sought to reassure the Turkish Government that 
weaponry provided to the SDF will be strictly controlled and that the 
United States will not allow the YPG and its political wing, the 
Democratic Union Party, from establishing an autonomous or independent 
entity along a strip of territory that the Kurds call ``Rojava,'' 
adjacent to Turkey's southern border. There is no indication that 
Turkey's leaders believe these assurances.
    Washington's military ties to the YPG are also propelling Turkey's 
relations with Tehran and Moscow. Turkey and Iran--both with large 
Kurdish populations--have a common interest in suppressing Kurdish 
nationalism and separatism. When it comes to Russia, much has been made 
of Erdogan's alleged admiration of Russian President Vladimir Putin and 
the rise of so-called ``Eurasianists'' within Turkey's officer corps 
who are anti-American and anti-Western. Those factors may very well be 
part of the explanation, but Russia's place as the powerbroker in Syria 
and Erdogan's concerns over Kurdish gains there have compelled him to 
go to Moscow in an effort to secure Turkish interests in the Syrian 
conflict.
    The final sources of tension are the venomous anti-American 
discourse that Turkish officials and media outlets representing the 
Government have employed since the summer of 2016 as well as the 
treatment of Americans both inside and outside of Turkey. Turkey's 
leaders have long played on the reservoir of antiAmericanism within 
Turkish society to their political advantage, but Erdogan oversaw an 
unprecedented attack on the United States after last summer's failed 
coup. The Government and government-friendly media engaged in blood-
curdling rhetoric that placed blame for the coup on, among others, U.S. 
Central Command's General Joseph Votel, the CIA, American officers 
serving at Incirlik, a professor at Lehigh University named Henri J. 
Barkey, and Senator Charles Schumer (D-NY). After the coup attempt, the 
Turks arrested Pastor Andrew Brunson, who has been living in Turkey for 
twenty-three years, and a NASA scientist of Turkish origin who is an 
American citizen named Serkan Golge. There are also at least a thirteen 
other U.S. citizens in pre-trial detention in Turkey. Of those, 
American consular officials in Turkey have been denied access to five 
of them. The Turks have also arrested a long-serving foreign service 
national who was an employee at the U.S. consulate in Adana. With the 
exception of one American who was jailed before the coup, all are 
facing charges related to terrorism.
    In Turkey today, ``terrorism'' is a catch-all charge that can be 
used against peaceful opponents of the Government, followers of 
Fethullah Gulen--the Pennsylvania-based cleric who once was a partner 
of Erdogan and is now accused of masterminding last year's failed 
putsch--or supporters of the PKK. The latter two are plausible, but 
there is also another possibility: the Americans being held in Turkey 
are bargaining chips to secure the extradition of Gulen and an end to 
the federal case against a Turkish-Iranian businessman named Reza 
Zarrab. The latter issue is particularly important to Erdogan because 
Zarrab was instrumental in busting sanctions on Iran, using gold 
traders in Istanbul and Turkey's state-owned Halkbank in the process. 
Zarrab is also believed to have knowledge of corruption at the highest 
levels of the Turkish Government.
    The abuse of Americans in Turkey, which has compelled experts like 
myself to avoid visiting the country, has taken place alongside 
violence or threats of violence against Americans in the United States. 
Recently, fifteen members of Erdogan's security detail were indicted 
for beating up peaceful protesters outside the Turkish ambassador's 
residence last May. This is a repeat of the melee that Erdogan's 
security team precipitated outside the Brookings Institution in March 
2016 and at the United Nations in 2011. In addition, Turkish diplomats 
have sought to create a hostile environment for those who research and 
write about Turkey. The embassy in Washington routinely sends staff to 
take video of public events addressing Turkish politics. The embassy's 
justice counselor once accosted me in an elevator after an event at the 
Woodrow Wilson Center for International Scholars because he did not 
like something that I said. After exiting the building, he chased me 
down the street yelling at me. Turkey's consul general in Chicago used 
a clip of Professor Barkey and me laughing during an event and posted 
it on Twitter claiming that we were laughing about the 249 people who 
were killed during the failed coup. Given the political atmosphere in 
Turkey, what the consul general did was nothing less than an incitement 
to violence. This is all part of an effort to undermine the ability of 
American scholars and journalists to work in Turkey.
    What can the United States do about the deteriorating situation in 
Turkey and the Ankara's problematic foreign policy? American 
policymakers must understand that they have little means to influence 
Turkey if they continue to define the relationship in the same terms as 
it was during the Cold War. The United States and Turkey have a long 
history, but past strategic ties hardly qualify as justification for 
the same in the present or future. Turkey remains important to the 
United States but less because it can be helpful and more because of 
the trouble Ankara can cause.
    It is often prudent to approach differences with other countries 
through private diplomacy and offering more ``honey than vinegar'' in 
public. The records from the Barack Obama and George W. Bush 
administrations also indicate, however, that that remonstrating with 
Turkish officials in private and publicly praising them has little, if 
any, effect on the policies that Ankara pursues at home and abroad. 
There is, of course, no guarantee that the application of public 
pressure on Turkey will alter its behavior for the better--the opposite 
may well occur--but it is a superior policy option than sanctioning 
Turkish actions through silence.
    The political, economic, and diplomatic pressure that Russia 
brought to bear on Turkey after Turkish warplanes shot down a Russian 
bomber in November 2015 is instructive. In time, Erdogan was compelled 
to issue an apology and pursue a conciliatory approach to Moscow. I am 
not advocating a similarly thuggish approach to Turkey, a long-standing 
ally, but rather offering a case in which Turkey's leader responded 
positively to public censure. Toward that end, there is an opportunity 
for the United States, especially Congress, to make Turkey aware of 
Washington's displeasure with its democratic backsliding, its treatment 
of Americans, and a foreign policy that is at variance with the 
interests and goals of the United States. It can do this by:

   instructing the Government Accountability Office to conduct a study 
        of the value of the U.S.-Turkey relationship;
   requesting that the Department of Defense study the costs and 
        modalities of leaving Incirlik airbase or shifting some of its 
        operations to other facilities in the area; and making the 
        results of this study public.
   requiring that the State Department review its travel advisory to 
        Turkey;
   restricting Turkey's participation in big-ticket, high-tech weapons 
        development and procurement; and
   publicly demanding that Turkish officials refrain from their 
        ongoing efforts to politicize the American judicial process.

    There are fears within the policy community that Turkey has become 
unmoored from the West. Those fears are warranted, but not entirely 
accurate. Ankara is and will continue to be a member of NATO, but it is 
not a partner in the Atlantic Alliance; Turkey is linked to Europe 
through trade flows, investment, and financial institutions, but it 
does not desire to be part of the West broadly defined by liberal 
norms, principles, and ideals. There is no doubt that large numbers of 
Turks are untroubled by this change. Ahmet Davutoglu--who served as 
both prime minister and foreign minister--has written that Western 
institutions are alien to predominantly Muslim societies like Turkey. 
There are also large numbers who want to remain within the ambit of the 
West. Above both groups is Erdogan, who is determined to undo the 
institutions and values of the republic--itself never a democracy--and 
replace them with a moralizing, religious (but not theocratic), and 
authoritarian political order. Whether Erdogan is successful or not, 
Turkish politics and society have changed dramatically since the 1950s, 
as has American politics and society, and consequently the United 
States must re-evaluate its relationship with Turkey.


    The Chairman.  Thank you very much.
    Dr. Sloat?

 STATEMENT OF DR. ARMANDA SLOAT, FELLOW FOR DEMOCRACY IN HARD 
    PLACES INITIATIVE, HARVARD KENNEDY SCHOOL, CAMBRIDGE, MA

    Dr. Sloat. Chairman Corker, Ranking Member Cardin, 
distinguished members of the committee, thank you for the 
invitation to discuss recent developments in Turkey and the 
implications for our bilateral relationship.
    With the chairman's permission, I would like to submit my 
full testimony for the record and summarize key points now.
    The Chairman.  Without objection. Thank you.
    Dr. Sloat. To state my bottom line up front, Turkey is 
undoubtedly a complicated and challenging NATO ally. However, 
it remains strategically important to the United States. Its 
government, as well as its people, require our continued 
engagement.
    A year after the attempted coup, Turkish society remains 
deeply traumatized by the aftermath of July 15, 2016, as well 
as regional risks to the country's security. There is little 
Western anchor given tense relations with the United States and 
the European Union. Gulenists and separatist Kurds are seen as 
existential threats. And amidst an indefinite state of 
emergency, dissent is limited, press freedom has been 
curtailed, the opposition remains fractured, and the economy is 
weakening.
    Many Turks were initially supportive of the Government's 
response to the coup attempt, which was neither expected nor 
desired. There was frustration with the perceived delay by the 
West in condemning the coup, and there remains consternation 
that the alleged coup plotter, Muslim cleric Fethullah Gulen, 
lives in self-imposed exile in Pennsylvania.
    Unfortunately, actions by the Turkish Government are 
weakening the democracy it purports to protect. Initial efforts 
to arrest suspected coup plotters and affiliated Gulenists have 
morphed into an apparent witch hunt against all political 
opponents, leaving a vulnerable state apparatus and a paranoid 
society. The elastic definition of terrorism alters the bounds 
of what is politically permissible while the state of emergency 
has had a chilling effect on public dissent.
    The domestic situation is unlikely to improve in the near 
future. Turkish citizens voted last April on whether to provide 
sweeping powers to the president. The results reflected a stark 
division in society. Official figures showed 48 percent of 
voters opposed the reforms. Yet, this number could be even 
higher as the OSCE cited a restrictive campaign framework and 
there were widespread allegations of fraud.
    As preparations for parliamentary and presidential 
elections are underway for 2019, Turkish civil society, I would 
argue, remains bowed but unbroken. This was seen most visibly 
in July when hundreds of thousands of Turks rallied for justice 
in Istanbul, the largest public protest since Gezi Park in 
2013.
    In addition to domestic challenges, Turkey sits in a 
turbulent neighborhood. It has been particularly affected by 
the civil war and battle against the Islamic State in Syria. 
These conflicts flooded Turkey with over 3 million refugees, 
created complex dynamics with Russia and Iran, contributed to 
major terrorist attacks, and further complicated relations with 
the PKK, a U.S.-designated Kurdish terrorist organization.
    Different priorities in Syria have contributed to tension 
in U.S.-Turkey relations. The most contentious debates have 
concerned local forces and the question of with whom to partner 
in the fight against ISIS. Turkey vehemently objects to U.S. 
cooperation with the Syrian Kurdish group known as the YPG, 
given the group's links to the PKK, as well as their 
aspirations to create an autonomous region in northern Syria. 
This Gordian knot will remain a bilateral sticking point as 
thorny decisions remain about security and governance 
arrangements in post-ISIS Syria.
    Despite these challenges, it would be a mistake to curb 
relations significantly with Turkey. It remains an important 
bridge between Europe and the Middle East. There is utility in 
continued efforts to keep Turkey anchored in a Euro-Atlantic 
community based on shared values even though Turkey does not 
always live up to those values. There are also real risks from 
a failed relationship, including setbacks to U.S. efforts to 
fight the Islamic State, a weakened ability to stem refugee 
flows into Europe, and the degradation of one of the region's 
most successful economies. Furthermore, Turkey's foreign policy 
orientation matters to the West. If the EU and U.S. abandon 
Turkey, Ankara will seek partners elsewhere, as demonstrated by 
its recent interactions with Russia and Iran.
    As a starting point, the U.S. needs to take seriously 
Turkish security concerns. On Gulen, the U.S. Government has 
made clear his extradition is a matter for the courts, but 
officials should continue seeking ways to help bring those 
responsible to justice.
    Relatedly, the U.S. and Turkey should continue their high-
level dialogue on Syria and the Kurds. The U.S. should continue 
pressing for the resumption of peace talks with the PKK, 
reiterating its opposition to the YPG's broader territorial 
aspirations, and working with Turkey and regional partners to 
develop a long-term political strategy for Syria.
    Finally, rule of law must remain on the bilateral agenda. 
Public rebuke is not always the most effective way to motivate 
political change, especially in a country quick to anti-
American sentiment. Yet, those in Turkish society who value 
democracy are seeking moral support. Most critically, senior 
American officials must stress the importance of human rights 
and good governance in private conversations with their Turkish 
counterparts.
    Relatedly, the U.S. should expand people-to-people ties, 
including reinvigorated efforts to enhance our trade relations.
    In closing, the only beneficiaries of significantly 
curtailed ties between the U.S. and Turkey are those who do not 
want the country facing West. Continued engagement, including 
honest discussion with the Government about our differences, 
plus expanded outreach to business and civil society, remains 
the only way forward.
    Thank you.
    [Dr. Sloat's prepared statement follows:]


                 Prepared Statement of Dr. Amanda Sloat

    Chairman Corker, Ranking Member Cardin, distinguished members of 
the committee, thank you for the invitation to discuss recent 
developments in Turkey and the implications for our bilateral 
relationship. Although Turkey can be a complicated and challenging NATO 
ally, it remains strategically important to the United States and 
requires our continued engagement.
    A year after the attempted coup, Turkish society remains deeply 
traumatized by the events of July 15, 2016 and its aftermath as well as 
regional risks to the country's peace and security. There is little 
western anchor given tense relations with the United States and the 
European Union. Gulenists and separatist Kurds are seen as existential 
threats. Amidst an indefinite state of emergency, dissent is limited, 
press freedom has been curtailed, the opposition remains fractured, and 
the economy is weakening.
    Many Turks were initially supportive of the Government's response 
to the coup attempt, which was neither expected nor desired. There was 
frustration with the perceived delay in western condemnation of the 
putsch amidst presumed ambivalence about the desirability of ousting 
the president. There remains consternation that the man accused of 
fomenting the coup, Muslim cleric Fetullah Gulen, is living in self-
imposed exile in Pennsylvania. While Ankara has given the U.S. 
Government boxes of documents, it has yet to provide sufficient 
evidence to persuade a judge of probable cause that would warrant 
extradition.
    Unfortunately, actions by the Turkish Government have begun to 
weaken the democracy that it purports to protect. Initial efforts to 
arrest suspected coup plotters and affiliated Gulenists have morphed 
into an apparent witch-hunt against all political opponents. Recent 
reports note at least 150,000 people sacked from government and 
academia, 50,000 or more jailed for alleged collusion, as well as over 
150 journalists behind bars. When I visited Turkey this summer for the 
first time since the putsch attempt, the climate of anxiety was 
palpable. There is a vulnerable state apparatus and a paranoid society. 
The state of emergency has had a chilling effect on public opposition, 
as it allows individuals to be held in pre-trial detention for 30 days 
without charge. The Government's elastic definition of ``terrorism'' 
alters the bounds of what is politically permissible; this has narrowed 
space for dissent, shrunk press freedom, and diminished confidence in 
state institutions. Americans (as well as Europeans) are getting caught 
in this web, as evidenced by the imprisonment of pastor Andrew Brunson 
on hollow terrorism accusations.
    The domestic situation is unlikely to improve in the near future. 
Against the backdrop of the failed coup, Turkish citizens went to the 
polls last April to determine whether to provide sweeping new powers to 
the president. While official results claimed 51 percent of voters 
supported the reforms, the OSCE cited a ``restrictive'' campaign 
framework and there were widespread allegations of fraud. Recep Tayyip 
Erdogan, who just began his fourth year as president, is now focused on 
preparations for parliamentary and presidential elections in 2019. He 
recently acknowledged these elections will be ``difficult,'' presumably 
as he recognizes disenchantment among his base given excessive post-
coup purges, economic challenges (as pocketbook politics affect his 
middle class supporters), and claims of government corruption. 
Meanwhile, opposition parties have struggled to provide an effective 
counterweight. The pro-Kurdish People's Democratic Party (HDP) is 
particularly hamstrung, as its leader Selahattin Demirtas, 13 MPs, and 
dozens of elected mayors are imprisoned on spurious terrorism charges.
    Despite these challenges, Turkish civil society is not dead. The 
country is deeply divided between supporters and opponents of Erdogan, 
as evidenced by the 48 percent of the electorate (at a minimum) who 
voted against the constitutional changes. In June, the Government--led 
by the conservative Justice and Development Party (AKP)--withdrew a 
proposal to allow developers to build industrial facilities in olive 
groves following public opposition. This is a small but not 
insignificant legislative victory. Later that month, Kemal 
Kilicdaroglu--leader of the social democratic People's Republic Party 
(CHP)--led a 280-mile ``march for justice'' from Ankara to Istanbul to 
protest arrests (including of a CHP MP) as part of the post-coup 
crackdown. Hundreds of thousands of protesters joined his rally in 
Istanbul, the largest public demonstration since the Gezi Park protests 
of 2013. While not a mass uprising, it demonstrated Turks' continued 
willingness to demand justice and government accountability.
    In addition to domestic challenges, Turkey sits in a turbulent 
neighborhood. It has been particularly affected by the civil war and 
battle against the Islamic State (ISIS) in Syria. These conflicts 
flooded Turkey with over 3 million refugees, created complex dynamics 
with Russia and Iran, contributed to several large terrorist attacks, 
and further complicated engagement with the PKK (the Kurdistan Worker's 
Party, a U.S.-designated terrorist organization that has fought the 
Turkish state for decades).
    Different priorities in Syria have contributed to tension in U.S.-
Turkey relations. Erdogan initially focused on the removal of Syrian 
President Bashar Al-Assad, which resulted in lax enforcement of border 
controls despite American and European calls to stop flows of foreign 
fighters. The U.S. was reluctant to engage in the civil war, but took 
aggressive action to counter the Islamic State. Turkey initially felt 
less threatened by the rise of ISIS, a view that changed after an 
attack by an Islamic State suicide bomber in southern Turkey in July 
2015. Weeks later Ankara opened Incirlik airbase to U.S. and coalition 
forces conducting counter-ISIS missions.US special operators sought 
ground forces with whom to partner. They found a faction of Syrian 
Kurds, the YPG (the People's Protection Units), to be the most 
organized and militarily effective fighters. They provided logistical 
and air support to help the YPG take territory from ISIS. Turkey 
vehemently objected given the YPG's links to the PKK. Their fears 
aren't unfounded: in 2016 alone, the PKK conducted multiple mass-
casualty attacks in Ankara and Istanbul that killed far more Turks than 
did ISIS attacks. Syria-related conflict also contributed to the 
breakdown of Turkey's 36-month ceasefire with the PKK.
    Amidst protracted and ultimately unsuccessful U.S.-Turkey 
negotiations about the viability of alternative Sunni forces, Turkey's 
top priority became preventing the YPG from achieving its political 
objective: the connection of three northern Syrian cantons into a 
single autonomous region, which Ankara feared could result in an 
independence bid or be used as a staging area for attacks on Turkey. 
This bilateral dispute came to a head in June 2017, when American 
officials informed Ankara on the eve of President Erdogan's visit to 
Washington that the U.S. had decided to arm the YPG for the battle 
against ISIS in Raqqa. While Erdogan begrudgingly accepted the 
decision, Turkey signaled its readiness to protect its redlines days 
later by firing on YPG forces allegedly targeting Turkish-backed 
opposition fighters. This Gordian knot will remain a sticking point in 
U.S.-Turkey relations, as thorny decisions remain about security and 
governance arrangements in post-ISIS Syria.
    Given the precipitous decline in Turkey's rule of law and the 
complicated diplomacy often required to reach agreement on shared 
challenges, it may appear tempting to walk away from the relationship. 
The European Union has begun its own debate, with the European 
Parliament calling to freeze accession talks, Enlargement Commissioner 
Johannes Hahn recommending a ``new approach,'' and German Chancellor 
Angela Merkel threatening not to update the Turkey/EU custom union.
    While now is an appropriate moment to assess and recalibrate, it 
would be a mistake to curtail relations with Turkey. It remains an 
important bridge between Europe and the Middle East. There is utility 
in continued efforts to keep Turkey anchored in a Euro-Atlantic 
community based on shared values, even if Ankara doesn't always live up 
to those values. There are also real risks from a failed relationship, 
including setbacks to U.S. efforts to fight the Islamic State (as well 
as future radical groups that grow in unstable environments), a 
weakened ability to stem refugee flows into Europe, and the degradation 
of one of the region's most successful economies. Furthermore, Turkey's 
foreign policy orientation matters to the west. If the EU and U.S. 
abandon Turkey, Ankara will seek partners elsewhere--as demonstrated by 
its recent interactions with Russia and Iran.
    As a starting point, Washington needs to take seriously Turkish 
security concerns. While the U.S. cannot give Turkey everything it 
demands, sustained discussion of its perceived threats builds trust and 
provides reassurance. On Gulen, the U.S. Government has made clear that 
his extradition is a matter for the courts. However, U.S. officials 
should continue engaging with Turkish counterparts to demonstrate the 
sincerity with which they are reviewing evidence and seek ways to help 
bring those responsible to justice. That said, Turkey should not employ 
judicial blackmail by detaining American citizens in the hopes of using 
them as leverage in their claims.
    Similarly, the U.S. and Turkey should continue their high-level 
dialogue on Syria and Kurdish issues. The late August trip by Defense 
Secretary James Mattis was a helpful visit by all accounts. Reports 
suggest he promised transparency in U.S. cooperation with the YPG, as 
well as further assistance in Turkey's fight against the PKK. More 
broadly, reconciliation between Turkey and the PKK is the only solution 
to this overarching regional problem. Washington should continue 
pressing Ankara to resume peace talks, offering American support as 
desired. In addition, the U.S. should work with Turkey and other 
regional allies to develop a long-term political strategy for Syria; it 
will be particularly important to understand Turkish plans with Russia 
and Iran. The U.S. should make clear to the YPG its opposition to 
Syrian Kurdish independence, as well as the need for the group to cut 
operational ties with the PKK, fulfill its long-ignored promise to 
withdraw east of the Euphrates River (i.e., not connect the cantons), 
allow displaced Sunni civilians to return home, and govern in an 
inclusive manner. In return, Ankara will need to accept some YPG 
participation in discussions about Syria's political future and the 
movement of Kurdish civilians between cantons.
    Beyond Syria, there are numerous regional issues where the U.S. and 
Turkey share common interests and can work together. Both countries 
have concerns about the planned independence referendum in Iraqi 
Kurdistan later this month, and they will need to manage the potential 
fall-out if it proceeds. Both have a vested interest in seeing a 
resolution to the dispute between Qatar and its Gulf neighbors. As the 
U.S. considers sending more troops to Afghanistan, it is worth 
remembering Turkey is the only NATO country that increased its troop 
presence following the Alliance's 2015 transition from a combat to a 
support mission. Within the Mediterranean, Turkey has the potential to 
become a regional energy hub and remains a critical player in resolving 
the Cyprus conflict.
    Finally, rule of law must remain on the bilateral agenda. Although 
public rebuke isn't always the most effective way to motivate political 
change (especially in a country quick to anti-American sentiment), 
Turkish citizens who value good governance are looking for moral 
support. More critically, senior American officials must stress the 
importance of rule of law in private conversations with Turkish 
interlocutors. Reports suggest President Trump did not raise such 
concerns during his Oval Office meeting with President Erdogan, which 
gives the unfortunate signal the U.S. no longer cares about the state 
of Turkish democracy.
    Furthermore, efforts should be made to expand the breadth of U.S.-
Turkey relations. It is unhelpful to personalize bilateral ties in 
interactions between leaders, while there are limits to a relationship 
rooted primarily in military cooperation. There is scope to expand 
people to people ties, which would encourage the half of Turkish 
society that fears being abandoned by its long-time friends. In 
particular, the U.S. should reinvigorate efforts to expand trade. This 
would benefit U.S. companies eager to invest in the Turkish market. It 
could also motivate reforms to help stabilize the Turkish economy; for 
example, the indefinite state of emergency remains a significant drag 
on foreign investment.
    In closing, there are strains in our bilateral relationship, 
divergent views on some important issues, and serious concerns about 
Ankara's commitment to rule of law and human rights. At the same time, 
the only people who benefit from the U.S. curbing ties significantly 
are those who don't want Turkey facing west. Continued engagement--
including honest discussion with the Government and expanded outreach 
to business and civil society--remains the only way forward.


    The Chairman.  Thank you.
    Senator Cardin?
    Senator Cardin. Dr. Sloat, I agree with your conclusion. So 
let us talk about one of the most sensitive issues, and that is 
the YPG and our campaign in Syria and Raqqa which, as I 
understand it, there was considerable outreach by the United 
States to Turkey as to the importance of using the YPG as the 
only viable way that we could get the necessary ground support 
in order to deal with the campaign in Syria. Do you believe 
there was a different way to handle this?
    Dr. Sloat. Thank you for the question.
    I should note I served in the Obama administration for 3 
years as the Deputy Assistant Secretary for Turkey up until a 
year ago. So I was directly involved in large numbers of those 
conversations.
    I think there was a history of differing priorities between 
the United States and Turkey with the Turks prioritizing from 
the beginning the removal of Assad, but the U.S. choosing not 
to get involved in the civil war in Syria but instead focusing 
on the campaign against ISIS. And that was part of what 
complicated discussions between the U.S. and Turkey on how to 
respond.
    I would argue that there were decisions that the Obama 
administration could have made several years prior to 
potentially support additional Sunni Arab forces. I believe we 
are in a position now where we have fairly limited options to 
the YPG, but I do not believe that was necessarily where we 
needed to end up.
    Senator Cardin. You think there were other options for 
ground support effectively dealing with the Raqqa campaign 
other than doing it with the YPG?
    Dr. Sloat. For the Raqqa campaign, I believe the YPG was 
likely the main option that we had.
    Senator Cardin. From what we have been briefed on, and our 
own information, I think the United States--the coalition 
forces--had very few other options. The question is was there a 
better way of handling this with Turkey. And as I understand, 
we have invested a great deal of time in working with Turkey to 
explain the military options that we had.
    Dr. Cook, thank you for your four suggestions. I think they 
are all ones that we should very much be considering.
    I want to get to military procurement specifically because 
it is an interesting proposal you have in regards to 
restricting arm sales to Turkey, which is something that this 
committee gets engaged with. But it looks like Turkey is 
looking towards Russia, as I said in my opening comment, with 
the S-400 missile interceptor. It also appears that could very 
well violate the recent statute passed by Congress on sanctions 
against Russia.
    We would expect a NATO partner to work with us in our 
efforts to change behavior in Russia as it relates to European 
security. That is not the case right now with Turkey.
    Do you believe that the United States should be in a 
position to tell Turkey that if they proceed with this, that it 
may very well cause action in America dealing with our sanction 
authority?
    Dr. Cook. Thank you for the question, Senator.
    Absolutely. I think we should make it abundantly clear and 
not just privately but publicly to the Turks that if they move 
forward with the S-400, there will be consequences for them.
    Their relationship with Russia is built on two separate 
issues. The first is the United States is not a diplomatic or 
political player in Syria, and for the Turks to ensure their 
interests in a post-war Syria, they have to deal with the main 
powerbroker there and that is the Russians.
    Second, the Turks tend to try to play the Russians or the 
Iranians against the United States. Every time they get into 
trouble, Turkish officials show up in Tehran or they make 
noises about weapons procurement, whether it is from the 
Chinese or the Russians. Publically, We have yet to make it 
abundantly clear to the Turkish Government that there will be 
consequences in terms of future weapons procurement and other 
types of relations should they move forward and violate these 
sanctions.
    As I said, there is no guarantee that this will work. At 
the same time, the kind of private engagement that the Obama 
administration and the Trump administration have pursued 
clearly has not gotten the Turkish Government's attention.
    Now, one point, if you allow me, on the question of the 
YPG. There was another option to the YPG. It was called the 
Turkish armed forces. However, as my colleague, Dr. Sloat, 
pointed out, the Turks had other priorities when it came to the 
confrontation with the Assad regime. They prioritized that over 
the Islamic State. And to some extent, the Turks had conflicts 
of interests with the Islamic State because the Islamic State 
was battling Kurds in northern Syria. So it strikes me there 
was an option, but the Turks took it off the table by refusing 
to work with us in the fight against the Islamic State.
    Senator Cardin. Thank you.
    Mr. Chairman, I have another question, but I will wait 
until the second round.
    The Chairman.  Senator Merkley?
    Senator Merkley. Thank you very much, Mr. Chairman.
    I appreciate that the State Department and the 
administration have been actively engaged in supporting 
specific NGOs that have been shut down by the Turkish 
Government. That being said, this administration has said 
shockingly little publicly about the closing of civil society.
    Through 2012 to 2014, the Department of State funded 
international NGOs to conduct humanitarian work in the context 
where there was no governance, no U.N., no International 
Committee of the Red Cross, or typical systems of protections. 
And these NGOs really stepped up. They provided massive levels 
of assistance to millions of extremely vulnerable people. Yet, 
when policies of the Turkish Government changed, these NGOs 
were left exposed and pretty much on their own, leaving 
millions of Syrians at risk and underserved.
    What suggestions would you have for us and for the 
administration to ensure the protection of the civil society 
space and stop any further autocratic sliding in Turkey?
    Can you all explain why you think the Government in Turkey 
is cracking down on civil society and will long-term harm 
result if it continues and what the resulting legacy of Erdogan 
would be?
    Dr. Sloat. Thank you for the question.
    As I understood your question, one part of it was talking 
about the work of civil society organizations with refugees. 
And we have had a large number of American organizations who 
have been working on the ground in Turkey to support Syrian 
refugees with Turkey hosting upwards of 3 million of them. A 
number of them have had challenges over the years in terms of 
registration----
    Senator Merkley. And also extensive work inside Syria based 
out of Turkey.
    Dr. Sloat. Right. And Mercy Corps, unfortunately, is one of 
the organizations that has been kicked out of Turkey in what to 
me seems like Turkey cutting off its nose to spite its face, 
since given the significant demand that refugees have, there is 
a significant need for these organizations to continue their 
work.
    I think the broader crackdown across the board in civil 
society in Turkey is extremely unfortunate. Some of this is 
being done within the guise of countering terrorism, and the 
Turkish Government's definition of terrorism seems to be 
constantly expanding from those who were supporting Kurdish 
separatists, those who were focusing on Gulen, and now anybody, 
more broadly, who is seen as opposing the Government.
    I would argue that the United States needs to continue 
engaging publicly in terms of expressing our support. That is 
an important thing that Congress can do. It is also something 
the administration should be doing. I think the State 
Department has been coming out with some statements in recent 
months expressing condemnation of the arrest of Amnesty 
International and others. I think it would be helpful to see 
more coming from the White House. I also think there needs to 
be more private diplomacy. Reports have suggested that 
President Trump did not raise any of these issues in his 
bilateral meeting with President Erdogan, and that is 
unfortunate. We need to have our leaders at the highest level 
expressing their disapproval of these domestic actions in 
Turkey.
    Senator Merkley. Thank you.
    Dr. Cook?
    Dr. Cook. Thank you.
    I essentially agree with the thrust of Dr. Sloat's 
arguments. It strikes me that, as long as the Turkish 
Government continues to expand its definition of terrorism, 
civil society organizations, opponents of the Government, 
journalists, and academics will all be vulnerable to arrest and 
being held in pretrial detention endlessly; human rights will 
continue to deterioriate.
    As I pointed out both in my written testimony and my 
summary of my written testimony, it is important for the United 
States to publicly stand for its own values and the values that 
the Turkish Government purportedly seeks to uphold, as well, in 
signaling to the Turkish Government that this is unacceptable 
from the perspective of the United States and that there will 
be consequences along a range of issues for the Turkish 
Government as long as they continue to violate human rights in 
such an egregious way.
    Senator Merkley. Well, thank you, both of you. And I think 
it is incredibly important that our executive branch and our 
President's team does flag these issues of profound impact on 
hundreds of thousands of folks who have been cut off from basic 
nutrition during extraordinarily difficult circumstances.
    There are signs that the Erdogan Government influenced the 
results of the April referendum, and despite the State 
Department noting discrepancies in voting, our President 
congratulated him on his election success. It is troubling that 
a NATO ally may have tampered with election results to allow 
its president to consolidate power. How significant was 
President Trump's positive response to the election results, 
and do you believe Trump's business conflicts of interest had 
an impact?
    Dr. Cook. Thank you, Senator.
    I cannot speak to the President's business interests in 
Turkey. I just do not know enough about it.
    What I will say is it strikes me that there was a theory 
behind the idea of calling President Erdogan and congratulating 
him on the referendum, which there have been many questions 
about. The idea was to bring President Erdogan along so that 
the Turks would not complicate our operations in conjunction 
with the YPG against the Islamic State stronghold in Raqqa. 
What I think decision-makers at the White House did not count 
on was that President Erdogan would pocket that phone call from 
the President of the United States and continue to pursue a 
policy that complicates our efforts in Syria.
    Senator Merkley. Thank you.
    Anything else you would like to add?
    Dr. Sloat. I would just add that the phone call, I think, 
was unfortunate in the sense that it legitimized a referendum 
that a large number of international organizations, including 
the OSCE, had expressed concerns about. Turkey had a fairly 
recent history of relatively free and fair elections. This 
referendum certainly was not free or fair in the sense that it 
was being conducted under the state of emergency, and a lot of 
the concerns that observers have raised certainly have called 
into question the fairness of it as well.
    Senator Merkley. Thank you very much.
    The Chairman.  Thank you.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to our two witnesses today.
    I am struck by a couple of things in your testimony today 
and your comments and statements you have made. In one 
statement, Mr. Cook, you stated that ``the deepening of 
authoritarianism in Turkey and the development of a cult of 
personality has had grave consequences for ideals that 
Americans hold dear, including freedom of expression, freedom 
of assembly, freedom of the press, and respect for human 
rights.'' Talking about hardly being a model partnership, 
considerable political regression, populism, nationalism, 
authoritarianism often manifests itself in hostility toward the 
U.S., results in policy choices that are at odds with American 
interests and goals, complicating our effort to fight 
terrorism, sources of tensions, a venomous anti-American 
discourse. It is pretty tough stuff in a relationship that is 
very critical and important.
    You also, toward the end of your statement, say ``there are 
fears within the policy community that Turkey has become 
unmoored from the West. Those fears are warranted but not 
entirely accurate.''
    So how do we address the challenges we have that you lay 
out very clearly in the statement and get to a point where they 
are not entirely accurate, indeed, we can carry forward in a 
meaningful, better relationship when it comes to terrorism, 
when it comes to other interests in the region and the 
leadership that we need from a NATO member nation.
    Dr. Cook. Well, Senator, thank you for the question. They 
are difficult questions, and there are ones that I think all of 
us in the Turkey-watching community wrestle with all the time. 
And that is, how do we anchor Turkey to the West and reaffirm 
our commitment to Turkey's security and carry on with the 
transatlantic relationship with Turkey as a firm partner, while 
the Turks are undertaking actions that undermine our efforts 
and the efforts of the West and violate human rights and, as I 
said in my testimony, the ideals that Americans hold dear?
    My conclusion is two things. First, there is actually 
little that will compel the Turks to change the course of their 
foreign policy and their domestic politics if we continue to 
define the relationship the way in which we have defined it 
over the course of the last 60 years.
    Senator Gardner. A model partnership.
    Dr. Cook. As a model partnership, as a strategic 
partnership. Certainly the Turks were critical partners in the 
Cold War, fought with American soldiers in the Korean conflict. 
There were crises and problems during that period, but they 
were overcome by the overarching threat that the Soviet Union 
presented. There is no overarching threat or big project that 
the two countries work on together. One could say in the 
abstract that both countries are opposed and want to work 
together to counter terrorism. Yet, the Turks accuse the United 
States of working with terrorists, and the United States 
accuses Turkey of working with terrorists.
    So we have to reevaluate and see this country as a 
different country. It is a country with differing interests. 
Its geography dictates that it pursues policies that are in 
conflict, at times, with the United States. But there is 
something to salvage from the relationship. As Dr. Sloat 
pointed out, Turkey is in a critically important location. If 
you draw lines out from the Turkish capital Ankara, the country 
literally sits at the center of many of our most pressing 
foreign policy issues.
    That is why I have come to the conclusion that to continue 
to allow the Turks to give us assurances in private while then 
going out in public and contradicting what they have assured us 
is no longer the way to go, that we should demand public 
accountability for the Turks. I remind you, I cannot remember a 
time that this Government or any Turkish Government has 
defended the strategic relationship with the United States in 
the same way that policymakers here in the United States have.
    The purpose of my recommendations is to get the Turks to 
understand that continuing to provide those assurances without 
upholding them will have consequences. It is only through that, 
it strikes me, that we will potentially effect a change in 
Turkey's behavior both at home and abroad.
    Senator Gardner. And how should we expect this relationship 
now, between Turkey and Russia, to change the way we view 
Turkey as a NATO participant?
    Dr. Cook. Well, certainly there is reason to be concerned 
about the Turkish relationship with Russia. Much has been made 
about President Erdogan's apparent admiration for Russian 
President Vladimir Putin. Much has also been made about the 
apparent rise of Eurasianists within the Turkish officer corps. 
These are people who would like to explore developing their 
relations with Russia more and turning away from the United 
States and the West.
    But there are limits to the Russian-Turkish relationship. 
First, the Turks do not trust the Russians, and they have no 
reason to trust the Russians. They have gone to Moscow 
primarily because the United States is no longer a factor in 
the Syrian conflict, and in order to ensure their interests, 
they need to deal with the Russians.
    This question of purchasing defense equipment from Russia 
is something that the Turks have sought to do not just from 
Russia but from the Chinese. It is an effort on their part to 
try to put the United States and the West on notice.
    There is also a concerted effort within Turkey to develop 
their own defense industrial base, and they often require 
technology offsets that will help them develop that defense 
industrial offset. It is unclear to me that this deal will go 
through.
    And then, finally, there is the question of Turkey's 
economic ties to the West. The United States is not a major 
player in the Turkish economy. All of our major companies are 
there, but really the trade and investment flows are between 
Turkey and Europe. And that, if anything, anchors Turkey to the 
West.
    So it does not keep me up at night--the idea of Turkey 
drawing closer to the Russians and literally turning from the 
West. But I think that we will not be able to restrain their 
behavior unless we take a firm stand on what they have done in 
Syria, what they are doing at home, what their relations with 
the Russians do in fact look like.
    Senator Gardner. Dr. Sloat, thank you.
    The Chairman.  Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both for being here.
    In August, we read reports about a clash inside Syria 
between U.S. forces and Turkish-aligned forces. This comes on 
the heels of reports from earlier this year about military 
clashes between the United States and Iranian-allied forces 
inside Syria. This seems to be the consequence of a fairly 
rapid and often unannounced buildup of U.S. forces inside 
Syria.
    Some people talk about the fight for Raqqa as if it is the 
beginning and the end of the conflicts with ISIS. And yet, what 
we know is that that conflict is just going to morph into one 
that shifts geographically to the Euphrates River valley, other 
places throughout Syria.
    Can you both talk about what the future potential conflicts 
are between U.S. forces or forces that the U.S. is directly 
aligned with and Turkish-based forces in and around Raqqa and 
as the fight moves to other places? How have we been successful 
or unsuccessful in efforts to deconflict with those forces that 
the Turks are supplying and funding, and what are the risks 
going forward?
    Dr. Sloat. Thank you, Senator. I think you are absolutely 
right that it is a very messy patchwork at the moment in Syria. 
The U.S. and Kurds are largely controlling the area east of the 
Euphrates; the Syrian regime, with Russia and Iran, controlling 
the center; Turkish-backed forces on the northern border. And 
then Jordan and Russia have created a fairly successful 
deconfliction zone in the southwest. So you are absolutely 
right. The focus at the moment has been on Raqqa, but once 
Raqqa has concluded, people are going to be looking toward Deir 
ez-Zor. They are going to be looking down south of the 
Euphrates River and then, also, what is happening on the 
Syrian-Iraqi border.
    The U.S., thus far, has been partnering with the YPG in 
that northern area out of what I believe has been military 
expedience in terms of their priority of clearing ISIS from 
that territory. The YPG initially did not want to go to Raqqa 
because it is outside their main area of interest in terms of 
the northern cantons that they have been looking to connect. 
And so there are going to be questions about whether or not the 
YPG are willing to continue pushing south of Raqqa.
    The broader question that then needs to be addressed is 
what are going to be the security arrangements there. Who is 
the hold force, particularly in these predominantly Sunni-Arab 
towns? And what are going to be the governance arrangements in 
those areas?
    And so I think this is going to be a particularly 
complicated battle space. It is going to be a contentious issue 
between the U.S. and Turkey, and I think all of the forces 
operating in this very congested battle space are going to 
continue to have the potential for conflict with each other 
because of the different competing alliances, not only between 
Turkey and the U.S., but also what some of these Kurdish and 
other forces are looking to achieve politically on the ground.
    Senator Murphy. Before I ask Dr. Cook to comment, that is 
because as we move further south, there is still the potential 
that we will be relying on the YPG or Kurdish-aligned forces. 
Are there new potential conflicts as we look to new partners as 
we move out of Raqqa and into parts south?
    Dr. Sloat. I think there is a question of who is going to 
be the force that is going to move on Deir ez-Zor, whether that 
force is going to get there before the regime and the Iranian-
Russian-backed regime gets there, whether the YPG push down 
that far south. And it is also not clear to me that we have 
established who the hold force is going to be in Raqqa and 
beyond. And so, I think this is going to continue to be a live 
question.
    Ideally we would be able to find some Sunni-Arab forces 
that we can work with as a partner force in this area, both to 
diversify the friends that we have on the ground and also to be 
working with a group of fighters that represents a broader 
swath of the Syrian population than the YPG necessarily does.
    Senator Murphy. Dr. Cook?
    Dr. Cook. Thank you, Senator.
    Just a few things to add in response to your initial 
question. Just sitting here, while I was listening to Dr. Sloat 
respond to you, I came up with at least six or seven different 
combinations of groups that will fight each other, are going to 
fight each other, or are fighting each other or could 
potentially fight with each other once Raqqa is liberated.
    The one thing I do have to add is that, whatever assurances 
that the United States gets from any of these groups about what 
they will and will not do once Raqqa is liberated, we should 
discount immediately, not the Turks, not the SDF, not the YPG, 
not the FSA who in August was firing on American forces, not 
any of these groups because we have a particular view of what 
should happen in Syria, and we have made common cause with 
groups that have a different view, but because they want our 
assistance, they are willing to tell us that they share our 
views. But once Raqqa is liberated, once Deir ez-Zor is likely 
to be liberated by government forces after the liberation of 
the garrison and the neighborhoods around it, I think all bets 
are off. I would expect that the YPG will want to move forward 
and try to bring together the independent cantons and create a 
territorially contiguous area which will draw the Turks further 
into the conflict in Syria. You are quite right that the 
liberation of Raqqa is certainly not the end game in Syria, and 
we will be dealing with this messy, at best, patchwork of 
different forces fighting each other for quite some time.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman.  Senator Risch?
    Senator Risch. Mr. Cook, in your testimony, you referenced 
denying Turkey access to high-tech weapons programs and 
development. Do you share the same sentiment when it comes to 
lower-tech arms, more conventional arms?
    Dr. Cook. Thank you, sir.
    I certainly believe that our commitment to Turkish security 
should remain and that Turkey should be able to defend itself. 
It lives in a very difficult and tough neighborhood.
    However, my concern in suggesting that the Turks should be 
denied access to those weapons development is that it is almost 
a reward for Turkey's bad behavior, for its pursuing policies 
that undermine our own goals and interests, and for its--I 
would not even call it democratic backsliding. I would call it 
deepening authoritarianism in Turkey. What I am not calling for 
in my testimony is for a breach in relations between the two 
countries.
    Senator Risch. I get that. But why would the same argument 
not apply to low-tech?
    Dr. Cook. As I said, making Turkey a partner in the 
development and deployment of the F-35 is a reward for bad 
behavior, whereas providing them with other weaponry that can 
help them defend themselves strike me as two different things.
    Senator Risch. Thank you.
    Regarding Turkey joining the EU, could you talk a little 
bit about Turkey's ability to do that, how you see that?
    Dr. Cook. Turkey technically remains a candidate for 
European Union membership. The European Commission offered 
Turkey an invitation to begin those negotiations in, I believe 
it was March 2005. Shortly after those negotiations began, a 
number of European countries essentially put those talks on 
hold. The reasons for that have to do with everything 
concerning Europe and Europe's inability to figure out what the 
European Union is, whether it is a geographic entity 
coterminous with predominantly Christian countries or whether 
the EU is a club of countries that have come together based on 
common ideals and principles related to democracy and freedom.
    If it is the former, certainly Turkey, a country that is 
99.8 percent Muslim, will never be able to join the European 
Union. If it is the latter, at least in the abstract Turkey can 
become a member of the European Union. But under current 
conditions, the deepening authoritarianism in Turkey, the grave 
violations of human rights, by all measures the rigged 
referendum of last April, Turkey does not meet any of the 
political criteria to join the European Union.
    Senator Risch. Dr. Sloat, do you have a comment?
    Dr. Sloat. I think there is a debate going on within the 
European Union similar to the one that we are having here 
within the United States in terms of having a lot of concern 
about the domestic trends in Turkey but also recognizing the 
necessity of partnering with Turkey on some shared regional 
challenges and for the EU, to an even greater extent, the 
degree of economic cooperation that you have between the two 
countries. The EU also has a further interest in partnership 
with Turkey, which is Turkish assistance in managing the 
significant refugee flows coming out of Syria and heading into 
Europe.
    Recently, the European Parliament has called to suspend 
accession talks with the Turks, and certainly relations between 
Turkey and some EU countries, particularly Germany, are at 
about the lowest point now that they have been. So I think a 
lot of people have been waiting to see what happens in the 
German elections, if Chancellor Merkel gets reelected, to see 
whether or not Turkey is able to move forward in terms of some 
of those accession talks.
    Merkel has been making pretty significant noise about 
wanting to stop discussions about upgrading the Turkey-EU 
Customs Union, which is something the Turks have long wanted to 
do, and has expressed concern in recent days about moving 
forward with accession talks. There is an argument to be made 
to keep Turkey on that path because it binds it within a 
framework of values and rules that it needs to continue to 
aspire to. But certainly relations between the two sides are 
particularly tense right now.
    Senator Risch. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses. Your written testimony is 
great, and I just really want to ask about one issue that I 
think we are grappling with here, and that is the strong 
relationship we have had with the Kurds in both northern Syria 
and northern Iraq. There is a Kurdish referendum in northern 
Iraq scheduled, I guess, for the end of this month. The 
administration has taken a very strong and clear position of 
requesting that that referendum be delayed on the theory that 
it could be very destabilizing right now.
    The Turkish Government, Erdogan, has had a pretty strong 
degree, historically, of support for the Barzani Government in 
Erbil, but my understanding is that the Turks are very opposed 
to this referendum.
    Talk to us a little bit about that tradition of support for 
the Barzani Government but why Turkey is opposed to the 
referendum and what might be consequences of it if it goes 
forward.
    Dr. Cook. Thank you very much, Senator Kaine.
    It was an extraordinary turnaround for Turkey. During the 
invasion of Iraq in 2003, it was the external power most likely 
to invade because of Kurdish nationalism in northern Iraq to 
some years later, 4 or 5 years later, establishing close ties 
with Masoud Barzani's KDP, the dominant party in the Kurdistan 
regional government, to the extent that more than 1,500 Turkish 
companies invested in the KRG. In Erbil, the capital of the 
KRG, it almost looks like a Turkish city in a lot of ways--and 
that there was a calculation on the part of the KDP, less so in 
the other major political group within the KRG, the PUK, but 
there was a calculation within the KDP that good relations 
between the KDP and President Erdogan's Justice and Development 
Party would reduce Turkish neuralgia over KRG independence and 
that the KDP would work against the PKK, this terrorist 
organization that has been battling the Turkish state since 
1984, which accrued to the KDP's domestic political advantage 
anyway, since its rivals were supporting the PKK.
    And even after the Islamic State overran Mosul in 2014, 
some Turkish officials even publicly stated that they did not 
have too much of a problem with the idea of an independent KRG 
because, given Iraq's problems, perhaps the KRG would be a 
buffer to the chaos that was enveloping Iraq. By and large that 
sentiment is no longer expressed publicly because of the return 
of the fight with the PKK in 2015 that has killed almost 3,000 
people.
    I think, broadly speaking, the Turks can accommodate an 
independent KRG, but while this battle is going on with the 
PKK. While there is terrorism in the streets in Turkey, they do 
not believe that this is a very good idea.
    The question remains, however, should the KRG go forward 
with its referendum--and I have been assured by officials from 
the KRG that it will go forward. I have also been told that 
they will not immediately seek an exit from Iraq--what options 
do the Turks have. They are certainly not going to invade the 
KRG, but they can, given their extensive investment in the KRG, 
certainly do a significant amount of economic damage to a part 
of Iraq that desires to be independent but does not really have 
an economy that can support it.
    Senator Kaine. Dr. Sloat, anything to add to that?
    Dr. Sloat. I would just add two additional points. One is 
the domestic concern for Erdogan is that the leader of the 
large nationalist party in Turkey, the MHP, has said that the 
Kurdish referendum should be viewed as a cause for war in 
Turkey. So I think Erdogan is also trying to balance his 
domestic considerations in terms of all of the things that Dr. 
Cook outlined in terms of some of the pragmatic approaches to 
regional politics with needing to shore up his nationalist 
base, especially in advance of these elections in 2019.
    The second issue is the more geopolitical issue, which is 
his concern about what the Syrian Kurds are looking to do in 
northern Syria. There is also a concern that if you have an 
independence referendum and the KRG establishes an independent 
state essentially that it sets a precedent in the region, and 
it would be much easier for the Syrian Kurds to do the same 
thing there. That would be particularly anathema to the Turks 
because you have got two different factions of Kurds at play 
there, and the ones with the YPG that are affiliated with the 
PKK are seen as a much greater existential security threat to 
Turkey than the ones that Barzani is leading in the KRG.
    Senator Kaine. Thank you for that.
    I just want to clarify one thing because I want to make 
sure I have stated this administration's position correctly. 
They have been pretty blunt in stating and asking us to take 
the position that the timing of the referendum is very 
unhelpful. They have not told us that they oppose the 
referendum; they oppose Kurds being on a path towards self-
determination. They just think the timing is not helpful. And I 
did not want to misstate what their position is.
    Thank you for sharing the Turkish perspective on it. I 
think it is a really important issue.
    The Chairman.  Senator Coons?
    Senator Coons. Mr. Chairman, Ranking Member, thank you for 
holding this hearing.
    And to Dr. Sloat and Dr. Cook, thank you for your testimony 
today on this complex and troubled relationship.
    As has been spoken about, as you have testified to, Turkey 
has detained more than a dozen U.S. citizens since the July 
2016 attempted coup, including a resident of Wilmington, 
Delaware, my hometown. And they have cracked down on human 
rights and on press organizations.
    Why do you believe they are arresting such a significant 
number of American citizens? And my core question: what unused 
levers of influence might we have to push human rights, freedom 
of speech, and rule of law in Turkey in a positive direction in 
the months and years ahead? Dr. Sloat, if you would start.
    Dr. Sloat. My sense is two things are happening on the 
first part of your question, Senator.
    First, I think some of these Americans are just 
unfortunately getting caught up in the broader sweep of what is 
happening in Turkey in terms of going after everyone who is 
being perceived in some way as supporting the Kurds, supporting 
the Gulenists, or supporting civil society organizations. 
Germany, for example, is having the same problem with several 
of its citizens being swept up in that.
    Second, and I think it is particularly unfortunate, there 
is a sense that Turkey may be engaging in what I would call 
judicial blackmail. Others are calling it diplomatic hostage 
taking in terms of recognizing the significance of these 
individuals to the U.S. Government and determining that they 
perhaps have higher value to the U.S. than the Turks 
necessarily saw. So the Turks that end up using this as a 
negotiating point in their conversations with us and other 
allies where we point out that these individuals are wrongly 
imprisoned and should be freed, Turkey says it is a case for 
the judicial system the same way as when they ask us to release 
Gulen or Reza Zarrab, we tell them that this is a matter for 
the judicial system.
    In terms of how we respond to this, my understanding is 
that the administration, certainly in the case of Pastor 
Brunson and others, has raised the issue at the level of 
President Trump, of Secretary Tillerson. I think we need to 
continue making the case to the Turks on the need to release 
these American citizens who are being wrongly held. And 
secondly, we need to not let them engage in this form of 
judicial blackmail by using these people as bargaining chips to 
try and resolve some of their court cases through extrajudicial 
or other means but continue to hold firm to the judicial 
process we have here.
    Senator Coons. Dr. Cook?
    Dr. Cook. Thank you very much for the question.
    In my written testimony and my oral summary, I referenced 
the Turkish officials politicizing the judicial process. This 
issue is what I am getting at. Dr. Sloat was very diplomatic, 
reflective of someone who has spent time at the State 
Department. I have not, so I do not feel the need to be as 
diplomatic.
    Essentially these Americans who are being held are more 
than bargaining chips. Some might even call them hostages.
    It is of crucial political importance for the Turks to make 
some headway in the extradition of Fethullah Gulen, the 
Pennsylvania-based cleric in exile who has been accused of 
masterminding the failed coup last July.
    And more importantly to President Erdogan is the case of 
Reza Zarrab, an Iranian Turkish businessman who will go on 
trial in New York in the coming months accused of busting 
sanctions on Iran. Mr. Zarrab apparently is aware of Turkish 
Government officials at the highest level, their involvement in 
this and corruption around them, which is why this has become 
so important for President Erdogan to the point where he raised 
it with President Obama.
    Senator Coons. If I might cut you off, I have got about a 
minute and a half left. I would like to ask you, just briefly, 
help me with a bigger question. Going forward, we have seen 
just a fundamental shift in U.S.-Turkey relations and the 
relations in Turkey and the EU and in NATO. What are the 
factors that ought to underpin, that could credibly underpin, 
the U.S.-Turkey relationship in this century going forward 
given where we are today. If you could both just give me a 
brief answer.
    Dr. Cook. Very quickly, it strikes me that the ideas that 
formed our understanding of the U.S.-Turkey relationship are 
based on the previous half century and are no longer valid, and 
that we should look at the relationship purely in transactional 
terms.
    Dr. Sloat. I would cite three things.
    The first is shared security concerns. Because of where 
Turkey is geographically, in order to resolve a lot of problems 
within the region, we need some degree of Turkish cooperation, 
if not acquiescence and partnership, to go forward.
    Second, I think our economic relationship has long been 
under-developed. There have been continued efforts to try and 
strengthen that, and I think that is an area where we can do 
that. It is not only good for U.S. businesses, but it also can 
force Turkey to make necessary reforms that will improve 
stability and other mechanisms there.
    And third, I think it is fundamentally important that we 
continue to support the people in civil society. If you look at 
the referendum results, at least 48 percent, if not more, of 
the country is opposed to what is happening in Turkey; and I 
think it is important that we not abandon our friends there who 
are looking to maintain a more democratic trajectory in Turkey, 
counter to what is currently happening.
    Senator Coons. Thank you, Dr. Sloat. Thank you, Dr. Cook. I 
appreciate your testimony, both of you.
    Thank you, Mr. Chairman.
    The Chairman.  Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Dr. Cook, can you give us your assessment of the prospects 
for Turkey's democratic institutions?
    Dr. Cook. Thank you very much for the question, Senator 
Markey.
    Turkey was never much of a democracy to begin with. It did 
have the trappings of a democracy. At best, we could call it a 
semi-authoritarian system. Throughout, there have been free and 
fair elections and a dizzying array of coalition governments 
that are reflective of parliamentary democracies.
    All that being said, the democratic institutions, political 
institutions of Turkey have either been hollowed out or they 
have been engineered in a way to advance the parochial 
political interests of President Erdogan or his broadly 
transformative national vision. The best example of that is the 
referendum that was held last April that changed 18 articles of 
the Turkish constitution that altered Turkey from a hybrid 
presidential parliamentary system to a purely presidential 
system, which will allegedly take place after the elections in 
2019, but we already see the effects of it today.
    What this means is essentially President Erdogan has taken 
advantage of these democratic political institutions to advance 
authoritarian politics in Turkey. So the prospects for Turkey's 
democratic institutions and the nature of institutions 
themselves have difficulties to change them over a long period 
of time, which suggests that Turkey's immediate and midterm 
future is likely to be authoritarian.
    Senator Markey. So hundreds of thousands of people who have 
lost their jobs, the 100,000 people who were detained, the 
50,000 arrests, all of this subsequent to the April 16 
constitutional referendum, are an indication of how this 
consolidation of power has only further deteriorated the 
democratic institutions.
    Dr. Cook. Two points of clarification, sir.
    First, the purge, the widespread crackdown that you 
referred to, actually accelerated after the failed coup in July 
2016. But it is a crackdown that has been going on at least for 
the two-and-half years before that failed takeover.
    Senator Markey. So let me then go to, if I can, the Gulen 
question because on that night of the, quote/unquote, coup, 
that is all we heard from the Turkish leadership was Gulen, 
Gulen, Gulen and Pennsylvania. And everyone in America was 
scratching their heads saying there was a revolution that began 
in Pennsylvania that is about to take over Turkey.
    So maybe you could, dr. Sloat, give us some information 
about what you think are the State Department views and actions 
that may be taken to ensure that Mr. Gulen, who has lived in 
the United States since 1999, is not subject to an extradition 
based upon his political positions rather than any actions that 
can be attributed to him or his followers.
    Dr. Sloat. Thank you for the question, but I would like to 
clarify. While I worked for the State Department in the past, I 
am not working for the State Department now. So I do not want 
to be representing the State Department.
    Senator Markey. I appreciate that. How do you like 
Cambridge?
    Dr. Sloat. You know, Turkey is much more interesting to 
watch from the outside than to----
    Senator Markey. No. I am saying I know you are up in 
Boston. You are up in Cambridge.
    Dr. Sloat. Yes. It's a beautiful city.
    I think there is a recognition that----
    Senator Markey. Which is just the State Department in 
waiting for both parties, or it has been until this 
administration.
    Dr. Sloat. Fair enough.
    I believe that the State Department, the Justice 
Department, the law enforcement agencies within the U.S. 
Government generally are taking very seriously Turkey's 
concerns about Gulen and about the followers of Gulen. And I 
think the fact that there is fairly widespread agreement across 
all political parties within Turkey about what is seen as 
Gulen's malign influence on society says something.
    The State Department and Justice Department lawyers last 
fall met with Turkish officials who handed over large amounts 
of evidence about what they alleged was Gulen's complicity 
within the coup. As I understand it, there are continued 
conversations happening between U.S. officials and Turkish 
officials. Within extradition proceedings, we need to have 
sufficient evidence that a federal judge can determine probable 
cause to determine extradition which, as I understand it, the 
Turks have not yet provided to us. But there continue to be 
ongoing conversations, and I believe a commitment by the U.S. 
Government to help address Turkey's security concerns and do 
whatever is necessary to bring those responsible to justice.
    Senator Markey. Thank you.
    The Chairman.  Thank you.
    Senator Cardin?
    Senator Cardin. Dr. Sloat, I want to follow up on the human 
rights issues with your experience as a former person in the 
State Department. We have had problems with Turkey for a long 
time on human rights. I remember one time within the OSCE, the 
Helsinki Commission, we had testimony from one of the 
opposition figures in Turkey as a result of the testimony 
before our commission. That individual was indicted for 
treason.
    So Turkey has a long history of concerns within complying 
with its OSCE commitments. It is a democratic country, but it 
is tending towards a one-party state. It has committed very 
serious violations of human rights. Pastor Brunson's detention 
is wrong, and if he is being held as a hostage, it even is more 
problematic as far as U.S. relations are concerned.
    So how do we focus on being a voice for a large percentage 
of the Turkish people who look at the United States as one of 
their important allies for returning democracy and human rights 
to Turkey? How do we reinforce that considering the serious 
challenges we have in our relationship?
    Dr. Sloat. Thank you for the question.
    I think you are right about the trend in recent years, and 
you are also right about our obligation to continue supporting 
the 50-plus percent of Turkish society that wants to see the 
country continue going in a democratic direction.
    I would disagree a little bit with Dr. Cook's 
characterization that certainly the Obama administration had 
been quiet on human rights, as I think it was something that 
was stated publicly as well as privately. And I think that is 
important.
    The challenge in Turkey is that the country tends toward 
anti-Americanism already. There is a tendency to look for 
external bogeymen and others to blame for things. And so 
sometimes extensive and excessive public statements can end up 
backfiring within Turkey because they can get manipulated 
internally as external enemies.
    That said, I think it is very important both for the 
Congress, for the administration, to continue making public 
statements of support for those supporting democracy within 
Turkey. I think it is important, when senior officials travel 
to Turkey, to continue meeting with those who are fighting for 
democracy, and I think it also needs to remain a significant 
part of our bilateral agenda with Turkey. I think there is a 
risk that we end up getting so focused on some of these shared 
security concerns that some of these rule of law things can 
drift off the agenda, and I think that is a significant 
mistake.
    Senator Cardin. That is my concern. Obviously, the urgency 
of dealing with the security issues, terrorism, our military-
to-military--those issues become dominant in our debate, and we 
sort of do not put the proper attention on the deterioration of 
human rights.
    Yes, I agree with you. I think our key diplomats need to be 
very visible on human rights issues, including meeting with 
those that are advocating for the return of human rights in 
Turkey. The challenge is how do we be even more visible in that 
support. What else can we do to underscore the importance to 
the relationship between Turkey and the United States that 
democratic institutions be restored and human rights respected?
    Dr. Sloat. I think while we need to continue the 
government-to-government dialogue on a lot of our shared 
security concerns, there also needs to be an effort to try and 
broaden the scope of our engagement with Turkey. And it is 
complicated, but I think that is where more people-to-people 
ties can play a part.
    And I would also argue that is where trying to strengthen 
and deepen our bilateral trade agenda would come in because 
there is a way of being able to use economic engagement to 
motivate some reforms. The state of emergency, for example, is 
one of the biggest drags on foreign direct investment in Turkey 
right now because people do not have confidence that their 
property is not going to be seized, that cases are going to be 
litigated fairly within court. So the economics can not only be 
beneficial to American business, but it can also be another 
direction at getting at the importance of some of these rule-
of-law issues.
    Senator Cardin. Dr. Cook, do you have any suggestions in 
regards to advancing human rights?
    Dr. Cook. I do, sir.
    If I may, let me just respond to a number of the comments 
that Dr. Sloat made. I certainly believe that we should be 
supporting our friends in Turkey, but I suspect that that group 
is a lot smaller than we suspect. There is a vast reservoir of 
anti-Americanism in Turkey. That includes people who are 
involved in civil society and other types of activist activity. 
In addition, I think that the broader public, given the 
narrative of the summer of 2016's failed coup d'etat, that a 
Pennsylvania-based cleric with the support of the American 
Government was somehow involved in the failed effort has 
narrowed your average Turk's view of the United States.
    In addition, I think that the private diplomacy that we 
conduct and whatever public criticism we have leveled against 
the Government of Turkey in the past--the effect has been the 
same. So I am not sure why we are reluctant to continue public 
criticism and, in fact, turn up the public criticism. At the 
very least--at the very least--we can be true to our values and 
perhaps we will get the Turkish Government's attention by being 
public in our censure of their human rights record.
    I also want to point out that the deterioration of human 
rights in Turkey also has a profound impact on our own 
security. The widespread purges in Turkey have had a 
significant effect on the capacity of Turkish security forces, 
the Turkish armed forces, which is the second largest military 
in NATO after that of the United States, having a very hard 
time in its operations in Syria. It is a question whether 
Turkey actually can be that military partner in part because so 
many officers have been purged from the armed forces.
    Finally, I want to add that it strikes me that it is 
important for the United States to publicly engage with Turkish 
officials and the Turkish public about the importance of human 
rights, about the importance of democratic institutions. I do 
not, unfortunately, believe that that is going to effect a 
significant change in the trajectory of Turkish politics if 
only because President Erdogan seems single-mindedly determined 
to undertake this transformation of Turkish politics, and the 
only way that he thinks that he can do it is by accumulating 
and consolidating personal power.
    Senator Cardin. I thank both of our witnesses. Thank you 
very much.
    The Chairman.  Thank you both. You have been outstanding 
witnesses. I think the Turkish relationship has been thoroughly 
examined today, but there will be additional written questions, 
especially from people who were not here. So we would like to 
keep the record open until the close of business Monday. I know 
that both of you have day jobs, but to the extent you could 
answer the questions fairly promptly, we would appreciate it. 
Again, thank you for offering your expertise today and helping 
us as we think through this difficult relationship.
    And with that, the meeting is adjourned. Thank you so much.


    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
             Dr. Steven A. Cook by Senator Robert Menendez

          The U.S.-Turkey relationship over the past couple of years 
        has suffered numerous challenges over the past couple years, 
        largely underlined by an extreme erosion of human rights and 
        alarming decline of democratic values under President Erdogan's 
        leadership.
          While Turkey remains a NATO ally and a necessary partner in 
        supporting Syrian refugees and other priorities in the region, 
        it is critical that we continue to stress the importance of 
        democratic institution and human rights that will ultimately 
        help promote stability and security in Turkey and in the 
        region.


    Question 1. What implications has the ``purge'' since last summer's 
attempted coup had on:

   Domestic institutions in Turkey, particularly the judicial system 
        and police?

    Answer. The purge, which accelerated after the failed coup of July 
2016, has hollowed out the national police force and the judiciary. 
President Erdogan and his supporters allege that the police and the 
judicial branch were hives of Gulenist activity and the Government has 
thus set out to replace police officers and judges with people who are 
loyal to the ruling Justice and Development Party. The result has been 
the further deterioration of legal norms and principles-like due 
process-that have contributed to the deepening of authoritarianism in 
Turkey.

   International institutions including Turkish delegations to NATO 
        and the U.N.?

    Answer. Many of the Turkish officers that staffed NATO were purged. 
This has had serious consequences for the ability of the Turks to work 
with NATO. Newly assigned officers to NATO commands lack the experience 
and linguistic proficiency to operate effectively within alliance 
structures. In addition, the lack of trust between the Government of 
Turkey and NATO has carried over to the Turkish personnel now assigned 
to staff NATO commands.
    The Turkish diplomatic corps has been transformed into an arm of 
the Justice and Development Party, which has overseen a ``de-
professionalization'' of Turkey's representatives abroad including at 
the U.N.

    Question 2. How do you assess the Trump administration's response 
to Turkish security guards violently assaulting peaceful protestors in 
Sheridan Circle in Washington, D.C. in May of this year during 
President Erdogan's visit? Do you believe the administration has taken 
the appropriate steps to fully condemn this assault on American values 
and fundamental freedoms of free speech and assembly?

    Answer. The Trump administration initially approached the assault 
with diplomatic skill, allowing the Metropolitan Police Department and 
the US Attorney to investigate the incident while condemning the 
violence from the podium at the State Department. This applied pressure 
on the Turks and gave the administration room for diplomatic maneuver. 
Yet after the Turks repeatedly lied about the incident, besmirched the 
Secret Service, and evidence emerged that President Erdogan may have 
ordered his team to take part in the melee, a more forceful response 
from the Trump administration was required.
    It is important to note that the incident on Sheridan Circle is 
part of a pattern. President Erdogan's security team has a history of 
precipitating/engaging in fights with people both in Turkey and abroad.

                               __________


     Responses to Additional Questions for the Record Submitted to 
              Dr. Amanda Sloat by Senator Robert Menendez

          The U.S.-Turkey relationship over the past couple of years 
        has suffered numerous challenges over the past couple years, 
        largely underlined by an extreme erosion of human rights and 
        alarming decline of democratic values under President Erdogan's 
        leadership.
          While Turkey remains a NATO ally and a necessary partner in 
        supporting Syrian refugees and other priorities in the region, 
        it is critical that we continue to stress the importance of 
        democratic institution and human rights that will ultimately 
        help promote stability and security in Turkey and in the 
        region.


    Question 1. What implications has the ``purge'' since last summer's 
attempted coup had on:

   Domestic institutions in Turkey, particularly the judicial system 
        and police?

   International institutions including Turkish delegations to NATO 
        and the U.N.?

    Answer. While it is understandable the Turkish Government wants to 
bring to justice those responsible for plotting against the state and 
prevent similar events in the future, the purges have been excessively 
broad and not enabled sufficient redress. Their expansive nature has 
undoubtedly affected the institutional knowledge and effectiveness of 
institutions across the country, with a May 2017 Amnesty International 
report describing the impact on the public sector and lives of those 
dismissed. Press reports indicate over 4,000 judges and prosecutors, a 
quarter of the total, have been removed. Reports suggest 13,000 police 
were suspended from their positions in the months after the coup 
attempt, with over 2,000 more removed before the one-year anniversary. 
Turkey fired some senior military staff serving at NATO headquarters 
and European command centers. There have also been purges in the 
Ministry of Foreign Affairs, but I do not have information on how these 
dismissals have affected the composition of U.N. or other delegations.

    Question 2. How do you assess the Trump administration's response 
to Turkish security guards violently assaulting peaceful protestors in 
Sheridan Circle in Washington, D.C. in May of this year during 
President Erdogan's visit? Do you believe the administration has taken 
the appropriate steps to fully condemn this assault on American values 
and fundamental freedoms of free speech and assembly?

    Answer. The State Department released a statement condemning the 
violence and stressing the importance of free speech, and Under 
Secretary of State Tom Shannon summoned the Turkish Ambassador. In 
addition, the State Department has been working with Washington DC 
police and Secret Service to identify and hold accountable those 
individuals involved. It was disappointing the White House failed to 
address events that occurred immediately after President Trump's 
meeting with President Erdogan, which reportedly did not include 
discussion of human rights and rule of law. It is important for the 
Trump administration to raise both publicly and privately its 
expectation that the Turkish Government adhere to democratic 
principles.
Cyprus
    Question 3. What implications does Erdogan's narrow victory in the 
referendum have on the ongoing negotiations of the Cyprus question?

    Answer. The negotiation process is currently stalled, as U.N. 
Secretary General Antonio Guterres concluded the latest round in Crans-
Montana in July 2017 after the parties failed to reach agreement. U.N. 
Special Envoy Espen Barth Eide has left his position. While there had 
been hopes for the development of a positive EU-Turkey agenda--to 
include Cyprus--after the German elections later this month, the 
current tensions between Ankara and Berlin diminish that prospect.

    Question 4. Do you believe that Erdogan will be willing to agree to 
a withdrawal of Turkish troops from Cyprus?

    Answer. Reports on the negotiations at Crans-Montana, Switzerland 
suggest Turkey expressed willingness as part of a settlement agreement 
to reduce its troop presence (currently estimated at 30,000-40,000) to 
the level of the 1960 Treaty of Alliance, which allowed 650 Turkish 
troops. The longevity of the troop presence was not resolved in the 
negotiations.

                               __________

               Letter Submitted by Amnesty International

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
